App. 1
This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-1449
A18-1615
Gene Rechtzigel, petitioner,
Appellant,
vs.
State of Minnesota,
Respondent,
AND
State of Minnesota,
Respondent,
vs.
Gene Rechtzigel,
Appellant.
Filed August 12,2019
Affirmed; motion denied
Cochran, Judge
Dakota County District Court
File No. 19AV-CR-15-10738
Gene A. Rechtzigel, Apple Valley, Minnesota (pro se ap­
pellant)
Keith Ellison, Attorney General, St. Paul, Minnesota;
and

App. 2
Christine J. Casellius, Apple Valley City Prosecutor,
Ryan J. Bies, Assistant City Attorney, Dougherty, Molenda, Solfest, Hills & Bauer P.A., Apple Valley, Minne­
sota (for respondent)
Considered and decided by Florey, Presiding
Judge; Worke, Judge; and Cochran, Judge.
UNPUBLISHED OPINION
COCHRAN, Judge
Appellant Gene Rechtzigel challenges two district
court orders addressing probation violations and re­
quests for postconviction relief arising out of his con­
victions for violating the Minnesota State Building
Code (MSBC). Because the district court did not abuse
its discretion in dismissing Rechtzigel’s postconviction
petitions, and Rechtzigel’s other claims are moot or not
properly before this court, we affirm.
FACTS
In June 2015, an Apple Valley building official is­
sued Rechtzigel a citation related to a fence Rechtzigel
constructed on his property. The citation included a to­
tal of four violations: two misdemeanor violations of
the MSBC and two misdemeanor violations of the Min­
nesota State Fire Code (the fire code). The MSBC vio­
lations included one count of violating a stop work
order and one count of failing to secure a building per­
mit. The fire code violations related to a fire hydrant
near the fence. Rechtzigel moved to dismiss the

App. 3
charges. The City of Apple Valley (the city) agreed to
dismiss the charges related to the fire code. After a
hearing, the district court denied Rechtzigel’s motion
to dismiss the remaining two counts, relating to the
MSBC. Rechtzigel sought appellate review of the pre­
trial order, and this court denied his request, noting
that Rechtzigel could appeal from final judgment on
the case.
The case was scheduled for jury trial on April 4,
2016. On that date, Rechtzigel entered into a plea
agreement and pleaded guilty to two counts of violat­
ing the MSBC pursuant to an Alford plea.1 In discuss­
ing the potential plea agreement, the prosecutor
informed Rechtzigel that he would be required to apply
for a permit and take any steps necessary to ensure
that the fence complied with the MSBC. The prosecu­
tor noted that she did not know what, if anything,
Rechtzigel would need to do to comply with the MSBC,
but defense counsel represented that the fence was
built to code. The district court accepted Rechtzigel’s
Alford plea and proceeded to sentencing. The district
court sentenced Rechtzigel to a stay of imposition on
1 Under Minnesota law, a defendant may plead guilty pursu­
ant to an Alford plea without admitting guilt if the defendant
“agrees that evidence the State is likely to offer at trial is suffi­
cient to convict” and if the district court independently deter­
mines that there is a strong factual basis for a finding of guilt and
a strong probability that a jury would find the defendant guilty.
State v. Theis, 742 N.W.2d 643, 649 (Minn. 2007); see also North
Carolina v. Alford, 400 U.S. 25, 38, 91 S. Ct. 160,168 (1970) (hold­
ing that in some circumstances, a court may constitutionally ac­
cept a defendant’s guilty plea even though the defendant
maintained his innocence).

App. 4
each count and to one year of probation. The district
court also included the following condition:
Defendant must apply to the [C]ity of Apple
Valley for the required [f]ence permit & pay
applicable fees within 10 days from today. De­
fendant shall include a land survey/drawing
or whatever is required by the City of Apple
Valley within 60 days. Defendant must allow
city inspection of the fence and defendant
shall comply with all applicable city codes re­
garding the fence. Upon compliance with the
applicable city codes with regard to the fenc­
ing defendant is to be discharged from proba­
tion.
Rechtzigel did not file a direct appeal of his convictions.
In September 2016, the city requested that the
stays of imposition be vacated because Rechtzigel
failed to provide an engineer-certified plan for the
fence, a required submission with the application for a
permit. The district court set a probation-violation
hearing for October 2016. Rechtzigel did not appear for
the probation-violation hearing, and the district court
issued a warrant for Rechtzigel’s arrest. Rechtzigel al­
leges that he never received notice of the hearing.
In September 2017, Rechtzigel filed an “ex parte”
motion to “dismiss” the charges to which he pleaded
guilty.2 The district court denied Rechtzigel’s ex parte
2 In his filings at both district court and the court of appeals,
Rechtzigel appears to use language about “dismissing” his
charges interchangeably to mean either that his convictions

App. 5
motion and scheduled another probation-violation
hearing. Rechtzigel then filed a petition for postconvic­
tion relief in October 2017. Rechtzigel requested that
the criminal charges and fines be “dismissed” or, in the
alternative, that the issue be set for jury trial. In De­
cember 2017, the district court denied Rechtzigel’s
petition and set the matter on for a contested probationviolation hearing.
In January 2018, the district court found that
Rechtzigel violated the terms of his probation. The dis­
trict court ordered Rechtzigel to cooperate with the re­
quirements of obtaining a permit for his fence and
ordered the parties to return for a review and disposi­
tion hearing in three months. Following that review
hearing, the district court extended Rechtzigel’s proba­
tion to July 26, 2018, required Rechtzigel to appear
for a review hearing on June 5, 2018, and required
Rechtzigel to submit an engineer’s report regarding
the fence to the city.
In March 2018, Rechtzigel filed an engineer’s re­
port with the district court. The report indicated that
the fence was not adequate to resist wind loads and
suggested additions were needed to repair the fence.
Rechtzigel disagreed with the conclusions of his own
engineer’s report. At the June 5, 2018 review hearing,
the district court scheduled another contested proba­
tion-violation hearing based on Rechtzigel’s continued
failure to bring his fence up to code. On June 7, 2018,
should be reversed or that he should be discharged from proba­
tion.

App. 6
Rechtzigel filed another motion to “dismiss” the
charges. On July 6, 2018, Rechtzigel filed a motion to
“dismiss” the charges or in the alternative to withdraw
his guilty pleas. In August 2018, the district court is­
sued an order finding that Rechtzigel violated the con­
ditions of his probation and scheduled a disposition
hearing. In that same order, the district court denied
Rechtzigel’s motions to “dismiss” the charges or with­
draw his guilty pleas. This order is the first of two dis­
trict court orders that Rechtzigel is currently appealing.
In September 2018, following the disposition hear­
ing, the district court ordered Rechtzigel to serve 20
days in jail starting on November 15, 2018. But the or­
der stated that the jail sentence would be vacated if
Rechtzigel brought the fence into compliance with the
MSBC and received approval from a city inspector by
November 1, 2018. This is the second order that
Rechtzigel is appealing.
After Rechtzigel filed an appeal of the September
order, he brought the fence into compliance with the
MSBC by reducing its height so that the MSBC’s re­
quirements no longer apply to the fence. As a result,
the district court vacated Rechtzigel’s jail sentence and
discharged him from probation. This court consoli­
dated Rechtzigel’s appeals.
DECISION
Rechtzigel is self-represented in these consoli­
dated appeals. Rechtzigel alleges a number of claims
and constitutional violations. Although only the

App. 7
August 2018 order and the September 2018 order are
at issue in this appeal, Rechtzigel’s jumbled brief
blends various issues from throughout the district
court proceedings. It is difficult to follow all of Rechtzi­
gel’s arguments, and much of his brief is without cita­
tion to legal authorities. While a self-represented
appellant “is usually accorded some leeway in attempt­
ing to comply with court rules, he is still not relieved
of the burden of, at least, adequately communicating to
the court what it is he wants accomplished and by
whom.” Carpenter v. Woodvale, Inc., 400 N.W.2d 727,
729 (Minn. 1987); see also State v. Seifert, 423 N.W.2d
368, 372 (Minn. 1988) (noting that Minnesota courts
require self-represented criminal defendants to com­
ply with standard rules of court procedure and that
“[n]o extra benefits will be given to [self-represented]
litigants”). Because Rechtzigel is self-represented, we
will consider his claims to the extent that we can un­
derstand them.
I.

The district court did not abuse its discre­
tion in dismissing Rechtzigel’s postconvic­
tion petitions.

Rechtzigel argues that the district court erred in
denying his postconviction petitions. He argues that
the MSBC does not apply to his fence and that he
should be allowed to withdraw his guilty plea and have
a jury trial. Rechtzigel also makes a number of consti­
tutional claims, including that the state violated his
rights to due process under the Minnesota Constitu­
tion and his rights to equal protection under the

App. 8
United States and Minnesota Constitutions. Rechtzigel also alleges violations of article I, sections 1,2,4, 5,
6,7,8,10, and 13 of the Minnesota Constitution. To the
extent that Rechtzigel argues that his convictions
should be reversed or that he should be allowed to
withdraw his guilty plea, we address those arguments
here. To the extent that Rechtzigel argues that he
should be compensated based on any alleged constitu­
tional violations, we address those arguments in sec­
tion III.
Minnesota law allows criminal defendants to
bring a variety of requests before a district court in the
form of a postconviction petition. Minn. Stat. § 590.01,
subd. 1 (2016) (allowing individuals convicted of crimes
to bring claims that “the conviction obtained or the
sentence or other disposition made violated the per­
son’s rights under the Constitution or laws of the
United States or of the state”); see also Sanchez v.
State, 816 N.W.2d 550, 554-56 (Minn. 2012) (address­
ing a postconviction petition alleging violations of the
Fourth and Sixth Amendments); Stewart v. State, 764
N.W.2d 32, 33-34 (Minn. 2009) (considering a postcon­
viction petition alleging a lack of subject-matter juris­
diction based on an argument that the laws were
invalid). “A motion to withdraw a guilty plea made af­
ter sentencing must be raised in a petition for postcon­
viction relief. . . .” Lussier v. State, 821 N.W.2d 581,583
(Minn. 2012); see also Sanchez v. State, 868 N.W.2d 282,
286 (Minn. App. 2015) (“A motion to withdraw a plea
after sentencing must be raised in a postconviction pe­
tition.”), aff’d, 890 N.W.2d 716 (Minn. 2017).

App. 9
But “ [t] he court may summarily deny a second or
successive petition for similar relief on behalf of the
same petitioner.” Minn. Stat. § 590.04, subd. 3 (2016).
“Review of a postconviction proceeding is limited to de­
termining whether there is sufficient evidence to sus­
tain the postconviction court’s findings, and a
postconviction court’s decision will not be disturbed ab­
sent an abuse of discretion.” Dukes v. State, 718 N.W.2d
920, 921 (Minn. 2006) (quotations omitted). “When
making this determination, we are not limited to the
reasoning of the postconviction court, and we can af­
firm the denial of postconviction relief on grounds
other than those on which the postconviction court re­
lied.” Id. at 921-22.
Rechtzigel filed his first petition for postconviction
relief in October 2017. In that petition, he argued that
the case should be “dismissed” on a number of grounds,
including that he fulfilled the requirements of the plea
agreement, that the MSBC did not apply to his fence,
and that the city violated numerous provisions of the
United States and Minnesota Constitutions. The dis­
trict court denied Rechtzigel’s petition, and Rechtzigel
chose not to appeal the district court’s decision. See
Minn. R. Crim. R 28.02, subd. 4(3)(c) (stating that a
defendant must appeal an order denying postconvic­
tion relief within 60 days after entry of the order).
On June 7,2018, roughly six months after the dis­
trict court denied his petition for postconviction relief,
Rechtzigel filed a motion to “dismiss” his charges un­
der Minn. R. Crim. P. 17.06. Rechtzigel filed another
motion to “dismiss” his charges under Minn. R. Crim.

App. 10
P. 17.06 or withdraw his guilty pleas under Minn. R.
Crim. P. 15.05 on July 6,2018. Although Rechtzigel did
not title his filings as postconviction petitions, his ar­
guments amounted to requests for postconviction relief
because he sought to collaterally attack the validity of
his convictions and withdraw his Alford pleas. The su­
preme court addressed a similar situation in Johnson
v. State, 801 N.W.2d 173 (Minn. 2011). In that case,
Johnson filed an initial postconviction petition, which
was denied, arguing that his plea agreement was inva­
lid for a number of reasons. Johnson, 801 N.W.2d at
175. After the time limit to file postconviction petitions
lapsed, Johnson filed a motion to correct his sentence
under Minn. R. Crim. P. 27.03, subd. 9, arguing that his
guilty plea was invalid. Id. The supreme court con­
cluded that, despite the motion’s title, it was in effect a
petition for postconviction relief and that the “petition
[was] untimely and should not be considered on the
merits.” Id. at 177. Similarly, Rechtzigel’s June 2018
and July 2018 motions amounted to petitions for post­
conviction relief.
Thus, Rechtzigel’s motions to dismiss and with­
draw his guilty plea were successive postconviction pe­
titions. Rechtzigel based those petitions on the same
grounds as his initial petition for postconvction relief:
that he fulfilled the requirements of the plea agree­
ment, that the MSBC did not apply to his fence, and
that the city was violating numerous provisions of
the United States and Minnesota Constitutions. The
district court summarily denied Rechtzigel’s petitions,
noting that the court had “previously denied

App. 11
[Rechtzigel’s] motions to dismiss in an Order dated De­
cember 8, 2017.” Because Rechtzigel’s June 2018 and
July 2018 postconviction petitions constituted succes­
sive petitions requesting similar relief, the district
court was entitled to summarily deny the petitions. See
Minn. Stat. § 590.04, subd. 3. Furthermore, we note
that Rechtzigel’s successive petitions were procedurally barred under the Knaffla rule. See Jackson v.
State, 919 N.W.2d 470, 473 (Minn. 2018) (“Under the
Knaffla rule, any claim raised on direct appeal, or in a
previous postconviction petition, will not be considered
upon a subsequent petition for postconviction relief.”
(quotation omitted)). On this record, we discern no
abuse of discretion in the postconviction court’s sum­
mary denial of Rechtzigel’s successive postconviction
petition.
II.

Rechtzigel’s request to reverse the sen­
tencing order is moot.

Rechtzigel also challenges the district court’s con­
clusion that he violated his probation and the district
court’s subsequent sentence for the probation viola­
tion, requesting that the district court’s “sentencing
orders be reversed.” Rechtzigel’s challenges to the pro­
bation violation and subsequent sentence are moot.
“Mootness has been described as the doctrine of stand­
ing set in a time frame: The requisite personal interest
that must exist at the commencement of the litigation
(standing) must continue throughout its existence
(mootness).” Dean v. City of Winona, 868 N.W.2d 1, 4-5
(Minn. 2015) (quotation omitted). The doctrine

App. 12
requires this court to decide only actual controversies,
and to refrain from issuing advisory opinions. In re
Schmidt, 443 N.W.2d 824, 826 (Minn. 1989). If there is
“no injury that a court can redress,” the case becomes
moot except in limited circumstances. State ex rel.
Sviggum v. Hanson, 732 N.W.2d 312, 321 (Minn. App.
2007). “An appeal is not moot, however, where the issue
raised is capable of repetition yet evades review or
where collateral consequences attach to the judgment.”
In re McCaskill, 603 N.W.2d 326, 327 (Minn. 1999).
We may consider post-appeal factual develop­
ments in determining whether an appeal is moot. See
Dean, 868 N.W.2d at 5-6 (determining that appeal was
moot based on factual developments occurring after
grant of appellate review). Lack of mootness is “a con­
stitutional prerequisite to the exercise of jurisdiction,”
and appellate courts “must consider the mootness
question even if ignored by the parties.” Schmidt, 443
N.W.2d at 826. “We review the issue of mootness de
novo.” Wayzata Nissan, LLC v. Nissan N. Am., Inc., 875
N.W.2d 279, 283 (Minn. 2016).
“The expiration of a sentence operates as a dis­
charge that bars further sanctions for a criminal con­
viction.” State v. Purdy, 589 N.W.2d 496, 498 (Minn.
App. 1999). Once the sentence has been served, any is­
sues involving the sentence are moot because the court
of appeals cannot grant effective relief. See State v.
Eller, 780 N.W.2d 375, 384 (Minn. App. 2010) (noting
that an appeal from a sentence was moot where the
sentence had already been served).

App. 13
In this case, the district court ordered Rechtzigel
to serve 20 days in jail unless he brought his fence into
compliance with the MSBC. After Rechtzigel reduced
the height of his fence to bring it into compliance with
the MSBC, the district court vacated the sentence and
discharged Rechtzigel from probation. Because the dis­
trict court vacated the sentence and discharged
Rechtzigel from probation, we cannot grant effective
relief. Rechtzigel has also not demonstrated that the
issues raised in this case are capable of repetition be­
cause the issues are confined to the specific circum­
stances of his case. We conclude that under these facts,
Rechtzigel’s challenges to the probation violation and
subsequent sentence are moot.3
III. Rechtzigel’s requests for damages and de­
claratory judgment are not properly be­
fore the court.
Rechtzigel also requests just compensation for his
fence, a ruling that the MSBC does not apply to his
fence, and a ruling that he should be allowed to rebuild
his fence without a permit. Rechtzigel’s request for
compensation appears to be based on claims that his
fence was unconstitutionally taken without just com­
pensation and that he was unconstitutionally forced to
3 To the extent that Rechtzigel’s arguments in his petitions
for postconviction relief that his charges should be “dismissed” re­
ferred to discharging him from probation, we note that those
claims are also moot. Rechtzigel has been discharged from proba­
tion and thus, he has already received his requested relief in re­
gard to those claims.

App. 14
cut the fence in order to avoid cruel and unusual pun­
ishment. Parties injured by constitutional abuses may
be entitled to recovery of monetary damages under 42
U.S.C. § 1983 (2012). Maras v. City of Brainerd, 502
N.W.2d 69, 75 (Minn. App. 1993), review denied (Minn.
Aug. 16,1993). But such claims should be brought as a
civil action, not as a part of a criminal appeal. See State
v. Fox, 868 N.W.2d 206, 226 (Minn. 2015) (declining to
address claims related to an appellant’s conditions of
confinement because such claims are more appropri­
ately raised in a petition for habeas corpus relief or in
a civil action under 42 U.S.C. § 1983). Because Rechtzigel’s claims for monetary damages should be brought
as part of a civil suit, we decline to address them here.
Rechtzigel also requests that this court provide an
opinion stating that he should be allowed to rebuild his
fence without a permit. Rechtzigel’s request amounts
to a request for declaratory relief. See Minn. Stat.
§ 555.02 (2018) (allowing any person whose rights are
affected by a statute or municipal ordinance to have
any question of construction or validity arising under
the statute or ordinance to seek a declaration of rights
under that statute or ordinance); see also McCaughtry
v. City of Red Wing, 808 N.W.2d 331, 337 (Minn. 2011)
(noting that a declaratory-judgment action is proper to
test the validity of a municipal ordinance). A request
for declaratory relief may be brought in district court.
But, because Rechtzigel did not bring a declaratoryjudgment action in district court addressing his rights
regarding a possible future fence, there is no district
court order regarding Rechtzigel’s rights in regards to

App. 15
a possible future fence. “[A]n undecided question is not
usually amenable to appellate review.” Hoyt Inv. Co. u.
Bloomington Commerce & Trade Ctr. Assocs., 418
N.W.2d 173, 175 (Minn. 1988). In the absence of a dis­
trict court order addressing Rechtzigel’s rights regard­
ing a theoretical future fence, we decline to address
that issue.
IV. We deny as unnecessary the state’s motion
to strike portions of Rechtzigel’s reply brief.
Finally, the state moved to strike portions of
Rechtzigel’s reply brief, arguing that it raises new is­
sues that were not raised in Rechtzigel’s principal
brief. Issues that are raised for the first time in an ap­
pellant’s reply brief are “not proper subject matter for
appellant’s reply brief and, therefore, [are] waived and
stricken.” See State v. Yang, 774 N.W.2d 539,558 (Minn.
2009) (striking an argument in appellant’s reply brief
because it raised a new issue).
The state argues that Rechtzigel’s reply brief in­
troduces new issues beyond his principal brief because
the reply brief’s statement of the issues differs from
the statement of the issues in his principal brief. Like
Rechtzigel’s principal brief, his reply brief is difficult to
follow at times, but it appears to center on the same
issues raised in his principal brief. To the extent that
we can understand Rechtzigel’s reply brief, and it ad­
dresses the issues raised in his principal brief and dis­
cussed above, we have considered his reply brief. We
have not considered any new arguments raised in the

App. 17
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF DAKOTA

FIRST JUDICIAL
DISTRICT

State of Minnesota,
City of Apple Valley
Plaintiff,
vs.
Gene Rechtzigel,

Court File Number:
19AV-CR-15-10738
FINDINGS OF FACT,
CONCLUSIONS OF
LAW AND ORDER
(Filed Aug. 2, 2018)

Defendant.
The above-entitled matter came on for a contested
probation violation hearing and motion hearing before
the Honorable David L. Knutson, Judge of District
Court, on July 9, 2018 at the Dakota County Judicial
Center in Hastings, Minnesota.
Christine Cassellius, Esq. appeared for and on be­
half of the State of Minnesota, City of Apple Valley;
Gene Rechtzigel appeared pro se.
Based upon all of the files, records, testimony, ar­
guments and proceedings herein, the Court makes the
following:
FINDINGS OF FACT
1.

On April 4,2016, Defendant pled guilty to the
charges contained in Count I, Fence Permit vio­
lation, and Count II, Stop Work Order Viola­
tion, both misdemeanor ordinance violations.

App. 18
2.

Defendant’s plea of guilty to Count I and
Count II on the scheduled trial date of April 4,
2016, was a result of negotiations between the
city prosecutor and Defendant’s attorney at
that time, Lucas Spaeth. The plea was placed
on the record. Defendant has appeared in
court a number of times and has had many
cases heard in court. He is quite familiar with
court processes and his rights.

3.

Defendant was placed on probation with the
specific requirements that:
Defendant must apply to the City of Ap­
ple Valley for the required Fence permit
& pay applicable fees within 10 days from
today. Defendant shall include a land
survey/drawing or whatever is required
by the City of Apple Valley within 60
days. Defendant must allow city inspec­
tion of the fence and defendant shall
comply with all applicable city codes re­
garding the fence. Upon compliance with
the applicable city codes with regard to
the fencing defendant is to be discharged
from probation. (Sentencing Order dated
April 4, 2016).

4.

A probation violation hearing was held on
January 25, 2018, where this Court found De­
fendant to be in violation of the conditions of
probation. This Court issued findings specifi­
cally stated:
Defendant specifically failed to comply
with the probationary condition requir­
ing Defendant to file a permit including

App. 19
“a land survey/drawing or whatever is re­
quired by the City of Apple Valley.” The
City of Apple Valley requires a “stamped
drawing from a licensed engineer” pursu­
ant to its building code due to the subject
matter being an 8 foot tall wood fence.
Defendant has failed to “comply with all
applicable city codes regarding the fence”
as was specifically stated in the Sentenc­
ing Order.
Defendant failed to make reasonable ef­
forts within a reasonable period of time to
comply with the city requirements. He
further failed to work with the City to ob­
tain the necessary stamped drawing from
a licensed engineer. Defendant received
multiple letters from the city outlining
the additional requirements that he was
to complete for the permit. (Probation Vi­
olation Order dated January 25, 2018).
5.

The January 25, 2018 Order set the case on
for a Review and Disposition/Resentencing
Hearing on March 9, 2018. The Order further
required the Defendant to “cooperate and
work with the City of Apple Valley to complete
the requirements to obtain a permit for his
fence and obtain a “stamped drawing from a
licensed engineer” within 30 days of the date
of this order.”

6.

At the hearing on March 9, 2018, this Court
extended Defendant’s probation, scheduled
another review hearing for June 5, 2018, and
required Defendant to “submit a final signed

App. 20
and stamped updated engineer’s report to the
City by March 23, 2018.”
7.

Following the June 5, 2018 hearing, the mat­
ter was set on for a contested probation viola­
tion hearing on July 9, 2018.

8.

On July 6, 2018, Defendant served and filed a
number of written motions. Defendant also
made several oral motions prior to the start of
the probation violation hearing on July 9. His
motions included: 1) a motion to dismiss
charges; 2) a motion to withdraw his guilty
plea due to incompetent counsel, involuntary
plea, and allegation that plea bargain wasn’t
on the record and did not comport with sen­
tence; 3) an objection to and/or seeks disqual­
ification of the prosecutor in this case because
Ms. Cassellius previously represented De­
fendant’ ex-wife; 4) an objection on the basis
of double jeopardy and 5) a request to have a
jury trial in this matter.

9.

At the contested hearing, Exhibit 1 (Letter
dated March 22, 2018 from Defendants
Consulting Engineer), Exhibit 2 (Chapter
1303.2200 of the Minnesota State Building
Code) and Exhibit 3 (Chapter 1300.0120 of
the Minnesota State Building Code) were of­
fered and received into evidence.

10. The following witnesses were called and of­
fered testimony: 1) George Dorn, Apple Valley
City Inspector; and 2) Zach Stadem, an asso­
ciate of Defendant. Defendant exercised his
right not to testify.

App. 21
11. Witness Dorn testified that Defendant has
paid for and obtained a permit, but has not
complied with all of the pertinent laws appli­
cable for this permit. Mr. Dorn further testi­
fied that a condition of the permit is to obtain
an engineer’s report on whether the fence
complies with the state building code due to
the fact that the fence is 8' high.
12. Defendant did obtain an engineer’s report,
which was introduced as Exhibit 1. The report
indicated that the construction is not ade­
quate to resist the specified wind loads. The
report also included specific repair require­
ments to the fence to bring it into compliance
with the code.
13. Defendant has failed to comply with the build­
ing and structural requirements that were
outlined by his own engineer. Defendant’s
questions during the trial were an attack on
his own engineer’s report without the engi­
neer being present.
14. Mr. Dorn also testified that city inspections
must be arranged to review the footings. He
also testified that he sent Defendant 3-5 let­
ters explaining all of the permit requirements.
Mr. Dorn has not received a call from Defen­
dant requesting an inspection. Mr. Dorn did
testify that he talked with Defendant’s con­
sulting engineer who confirmed that they
stand by their report.
15. On cross examination, Mr. Dorn testified that
the 8' fence is a structure that must comply
with the state building code pursuant to city

App. 22
ordinance. He also testified that the original
installation of the fence was completed with­
out a permit in violation of city code, and is
currently in violation of state building code
since Defendant has not constructed the fence
according to his own engineer’s requirements
under the applicable building code.
16. The testimony of Mr. Dorn was clear, believa­
ble and concise as to the code requirements
and Defendant’s deficiencies and non-compli­
ance.
17. Zach Stadem testified as to the documents
that were submitted on behalf of the Defen­
dant to the city as part of the permitting
process. He also testified as to his communi­
cations with the Defendant’s engineer. De­
fendant asked Mr. Stadem a number of
questions regarding the building code and the
wind speed his fence should be able to sustain.
Many of the questions were objected to and
sustained by the Court as being irrelevant
and found to have lacked foundation.
18. Defendant offered no testimony to support his
motions to dismiss and withdraw his pleas.
Defendant and this Court are relying on De­
fendant’s written submissions and arguments
during the hearing to support his motions.
CONCLUSIONS OF LAW
1.

The State of Minnesota, City of Apple Valley
met its burden of proof and proved by clear
and convincing evidence, that the Defendant

App. 23
violated the terms and conditions of probation
imposed at the sentencing hearing on April 4,
2016 by specifically failing to have the fence
inspected by the city and failing to comply
with all applicable city building codes regard­
ing the fence, in continuing violation of Count
1 of the criminal complaint.
2.

The ability to withdraw a guilty plea is not ab­
solute and may usually be done only at the
trial court’s discretion. Shorter v. State, 511
N.W.2d 743, 746 (Minn. 1994); Kim v. State,
434 N.W.2d 263, 266 (Minn. 1989). If a plea is
invalid because it was not made voluntarily,
made intelligently, or supported with a valid
factual basis, the court must allow the plea to
be withdrawn to correct a manifest injustice
as long as the defendant’s motion is timely
and proven to the satisfaction of the court.
Minn. R. Crim. R 15.05, subd. 1; State v. Theis,
742 N.W.2d 643, 646 (Minn. 2007). A plea of
guilty is considered voluntary when it is “a
voluntary and intelligent choice among the
alternative courses of action open to the de­
fendant” including “the defendant’s desire to
accept the certainty or probability of a lesser
penalty rather than face a wider range of pos­
sibilities extending from acquittal to convic­
tion and a higher penalty authorized by law
for the crime charged.” North Carolina v. Al­
ford, 400 U.S. 25, 31 (1970); Brady v. United
States, 397 U.S. 742, 751 (1970). Defendant
put forth no evidence that showed his plea
was not entered into voluntarily, intelligently,
and supported by a valid factual basis. De­
fendant entered his plea on April 4, 2016.

App. 24
After being sentenced, and appearing at 4 pro­
bation violation hearings, he now brings his
motion to withdraw his plea, nearly 2 and V2
years later. The motion is not timely, and the
Court finds no evidence of a manifest injus­
tice.
3.

This Court has previously denied Defendant’s
motions to dismiss in an Order dated Decem­
ber 8, 2017. The remaining motions before
this Court are without merit and unsupported
by any evidence or any testimony offered at
the hearing.
ORDER

1.

Defendant is found to be in violation of the
conditions of his probation.

2.

The parties shall appear at a disposition hear­
ing at which time Defendant shall be resen­
tenced on this violation.

3.

The Disposition Hearing is scheduled for
Monday September 10, 2018 at 9:00 a.m. at
the Dakota County Judicial Center in Has­
tings, MN.

4.

Defendant’s motion to dismiss the charges are
denied.

5.

Defendant’s motion to withdraw his guilty
plea is denied.

6.

Defendant’s motion to disqualify the prosecu­
tor in this case is denied.

App. 25
7.

Defendant’s motion to dismiss this case based
on the prohibition against double jeopardy is
denied.

8.

Defendant’s request to have his probation vi­
olation case heard by a jury is denied.

Dated:
BY THE COURT:
Knutson, David
2018.08.02
/s/ David L. Knutson 16:26:26-05’00’
Judge of District Court

App. 26
The State of Minnesota
Dakota County
Dakota, Apple Valley

District Court
1st Judicial District

State of Minnesota vs GENE RECHTZIGEL
AMENDED ORDER
Case Number: 19AV-CR-15-10738

CURRENT DEFENDANT INFORMATION
Known Address:

6533 160th ST W
Apple Valley, MN 55124

Correspondence Address:

6533 160th ST W
Apple Valley, MN 55124

Phone Number: (H) 952-212-1234
(C) 612-618-0780 DOB: 10/15/1953
CASE CHARGES
Ct Statute Type Description
1 2015 Charging
MSBC1300.
0120
2 2015 Charging
MSBC1300.
0170
3 2007 Charging
4 2007

Charging

Disposition

Permit Required
for Fence

Convicted

Stop Work
Order Violation

Convicted

Objects to Close Dismissed
to Hydrant
3 Foot Clearance Dismissed
Around Hydrants

App. 27
TERMS OF DISPOSITION
OR SENTENCE; COUNT 1
Level of
Sentence: Misdemeanor
Sentence is a stay of imposition
pursuant to M.S. 609.135.
Amended Due To: Probation Violation
Date Pronounced: September 10, 2018
Offense Information
Ct Offense
Date

Statute Description

1 06/15/2015 2015
Permit Required
MSBC for Fence
1300.
0120

Offense
Disposition
Convicted

Controlling
MOC at GOC Controlling
Filing
Agency
No.
Housing Inspector
Sentence Details
Monitoring - Adult
Defendant is placed on Probation to the Court for 1
year and 6 months, monitored by Dakota Co District
Court - Hastings Criminal.
Start Date: 04/04/2016

Discharge Date: 07/26/2018

probation extended 6 months to 7.26.18
Status: Active

Status Date: 03/09/2018

App. 28
Fees
Sentence includes a $250.00 fine.
Law Library Fees

$5.00

Municipality Fines 2/3

$250.00

Crim/Traffic Surcharge
(once per case)

$75.00

Apple Valley Pros Costs

$250.00

Subtotal

$580.00

Due 05/04/2016

Conditions - Adult
Defendant is placed under the following conditions:
Condition

Location Amt

Conditions, other

Effective

End

04/04/2016
Defendant must apply to the city of Apple Valley
for the required Fence permit & pay applicable
fees within 10 days from today. Defendant shall in­
clude a land survey/drawing or whatever is re­
quired by the City of Apple Valley within 60 days.
Defendant must allow city inspection of the fence
and defendant shall comply with all applicable
city codes regarding the fence. Upon compliance
with the applicable city codes with regard to the
fencing defendant is to be discharged from proba­
tion.

App. 29
Conditions - Adult
Defendant is placed under the following conditions:
Condition

Location Amt

Effective

End

01/25/2018

Conditions, other

Defendant shall cooperate and work with the City
of Apple Valley to complete the requirements to ob­
tain a permit for his fence and obtain a “stamped
drawing from a license engineer” within 30 days of
the date of this order.
Conditions - Adult
Defendant is placed under the following conditions:
Condition

Location Amt

Conditions, other

Effective

End

01/09/2018

review hearing scheduled for 6.5.18 @ 9:00 am in
Hastings; Defendant shall submit a final signed
and stamped updated engineers reprot to the city
by 3.23.18
Local Confinement
Defendant is sentenced to 20 days in the Dakota
County Jail.
Start Date: 11/15/2018
Start Time: 9:00 AM
jail may be vacated if def has inspection approval com­
pleted and submitted to court by 11/1/2018 along with
other conditions listed.
Status: Active

Status Date: 09/10/2018

App. 30
Conditions - Adult
Defendant is placed under the following conditions:
Condition

Location Amt

Conditions, other

Effective

End

09/14/2018

1. Fence must conform to Apple Valley City Code
in all respects including all applicable ordinances,
policies and statutes regarding this fence permit
and Defendant’s building request.
2. Fence modifications, repairs and reinforce­
ments must meet the requirements of the City as
outlined in Defendant’s consulting engineer’s let­
ter dated March 22, 2018, or, in the alternative,
Defendant may reach agreement with the City of
Apple Valley inspections department to make
other modifications to the fence which would meet
and comply with city code requirements.
3. Defendant must arrange for the City to in­
spect the fence following completion of any modifi­
cation work.
4. Defendant must obtain a completed inspection
and final approval of this permit on or before No­
vember 1, 2018 and submit the completed,
stamped and signed permit approval to Court Ad­
ministration.
5. If final inspection approval is not completed
and obtained by November 1, 2018, then Defend­
ant shall report to the Dakota County Jail on No­
vember 15, 2018 at 9:00 a.m.
6. Defendant shall be discharged from probation
upon completion of listed conditions or jail sentence.

App. 31
TERMS OF DISPOSITION
OR SENTENCE: COUNT 2
Level of
Sentence: Misdemeanor
Sentence is a stay of imposition
pursuant to M.S. 609.135.
Date Pronounced: April 04, 2016
Offense Information
Ct Offense
Date

Statute Description

1 06/15/2015 2015
Stop Work
MSBC Order Violation
1300.
0120

Offense
Disposition
Convicted

Controlling
MOC at GOC Controlling
Filing
Agency
No.
Housing Inspector
Sentence Details
Concurrent/Consecutive
Concurrent
all terms concurrent with count 1
Monitoring - Adult
Defendant is placed on Probation to the Court for 1 year,
monitored by Dakota Co District Court — Hastings
Criminal.
Start Date: 04/04/2016
Status: Closed status

Discharge Date: 04/04/2017
Date: 04/23/2017

App. 32
GRAND TOTALS
Date of Sentence: 09/10/2018
Due Date: 05/04/2016

Revised: $580.00

The court may refer this case for collection if you fail
to make a payment, and collection costs will be added.
You have the right to contest a referral for collection
based on inability to pay by requesting a hearing no
later than the due date. M.S. §§ 480.15, subd, 10c;
609.104
SIGNATURE
/s/ David L. Knutson

Judge David L. Knutson

Sentence pronounced on 09/10/2018 by District Court
Court Administrator: Heidi Carstensen 952-891-7256
If you have questions regarding the terms of your sen­
tence or disposition, please contact your probation
agent or court administrator.

App. 33
19AV-CR-15-10738
STATE OF MINNESOTA IN DISTRICT COURT
COUNTY OF DAKOTA

FIRST JUDICIAL
DISTRICT

NAME: /s/ Gene Rechtzigel
Court File No(s): 19AV-CR-15-10738
PROBATION VIOLATION ORDER
FINDINGS FOR UNCONTESTED HEARING
□

The Defendant admitted violating the terms and
conditions of probation as set forth in the proba­
tion report filed with this Court. The Court accepts
the Defendant’s admission and the Defendant is
now sentenced as follows:
COUNSEL Christine Cassellius
pro se
FINDINGS FOR CONTESTED HEARING

m

The Court, having heard all evidence presented at
this proceeding, now specifically finds, by clear and
convincing evidence, that the Defendant violated
the following terms and conditions of probation:
See order from 1/25/18

□

The Court further finds that the violation was in­
tentional or inexcusable.

□

The Court finds that the need for confinement out­
weighs the policies favoring probation and/or that
it would unduly depreciate the seriousness of the
original conviction and/or violation if probation

App. 34
were not revoked. Finding 3 only needed in case of
prison sentence.
DISPOSITION
M

The Defendant is reinstated on the same terms
and conditions as previously imposed. PLUS the
following terms and conditions as set forth below

□

The previous sentence is vacated and you are now
sentenced to the following terms and conditions
set forth below:
SENTENCED: Probation is extended an addi­
tional 6 months to 7/26/18

□

Serve

days in County jail: Beginning on
___ @____am/pm: with Work Re­

lease, if eligible
□

Credit for time served__
EHM □____ days STS

days □

days

Note: Community Work Service, EHM, STS,
Work Release and Victim Impact. Panels are
all scheduled arranged by DCCC. See Appendix
A on reverse side.
□

Community Service of__
To be completed by____

□

Fine $____ Surcharge $_____Court/ Lab Costs
$
CD DA Assessment $____

□

Restitution $
or
□ as determined by Community Corrections

hours

App. 35
□ Financial obligations are due by
as determined by Court Collector

or

An acceptable, private, chemical dependency
evaluation may be provided within 30 days of
this Order. Assessment fee is waived if private
assessment is obtained.
□

Submit to and follow all recommendations, includ­
ing any recommended aftercare, of:
□ Chemical Dependency
□ Domestic Abuse
□ Psychological Evaluation

□

No use of alcohol or illegal drugs.

□

Submit to random chemical/substance testing

□

Attend Victim Impact Panel

□

No DAR, DAS, Driving without a driver’s license,
driving without insurance or alcohol related of­
fenses.

□

Follow rules and regulations of Probation Depart­
ment.
Remain law abiding.

□
M

Review Hearing schedule for 6/5/18 @ 9:00 am in
Hastings

H

Other: Defendant shall submit a formal signed
and stamped updated engineer’s report to the city
bv 3/23/18.

3/9/18
DATE

/s/ David L. Knutson
Judge of District Court

App. 36
TO THE SHERIFF OF DAKOTA COUNTY, MINNE­
SOTA: You the Sheriff of Dakota County, Minnesota
are hereby commanded to take the said defendant into
your custody there to be received, kept, and employed
until duly discharged by due course of law or compe­
tent authority.
Witness the Honorable Judge of said Court at Dakota
Minnesota BY:
, Deputy
Date of Offense.
Birth:________
Controlling Agency:___
Agency Control Number

Date of
MOC:
Arresting

^APPENDIX A ON THE REVERSE
SIDE IS PART OF THIS ORDER****

App. 37
19AV-CR-15-10738
DISTRICT COURT

STATE OF MINNESOTA
COUNTY OF DAKOTA
State of Minnesota,
Plaintiff,
v.
Gene Rechtzigel,
Defendant.

FIRST JUDICIAL DISTRICT
Court File No.:
9AV-CR-15-10738
ORDER AND
MEMORANDUM DENYING
DEFENDANT’S MOTIONS
TO DISMISS
(Filed Dec. 8, 2017)

The above-entitled matter came on for an Admit/
Deny Hearing before the Honorable David L. Knutson,
Judge of District Court, on October 19,2017 at the Da­
kota County Western Service Center in Apple Valley,
Minnesota on the Order for Summons on a Probation
Violation issued September 8, 2016. Defendant’s mo­
tions to dismiss under Minnesota Rule of Criminal Pro­
cedure 17.06, Minnesota Statutes §§ 554.01 to 554.06
and for a lack of jurisdiction were also heard and con­
sidered.
Ryan J. Bias, Assistant Apple Valley City Attorney,
appeared on behalf of the Plaintiff.
Defendant appeared pro se.
NOW, THEREFORE, the Court having considered
the matter, being fully advised in the premises, and
based upon all the files, records and proceedings herein,
issues the following:

App. 38
ORDER
1. Defendant’s motion to dismiss for lack of jurisdic­
tion is denied.
2. Defendant’s motion to dismiss under Minnesota
Rule of Criminal Procedure 17.06 is denied.
3. Defendant’s motion to dismiss under Minnesota
Statutes §§ 554.01 to 554.06 is denied.
4. A denial to the alleged probation violation shall be
entered on the Defendant’s behalf.
5. The parties shall appear for a Contested Probation
Violation Hearing on January 25, 2018 at 9:00 a.m. at
the Dakota County Judicial Center in Hastings, Min­
nesota.
6. The attached memorandum is incorporated herein
by reference.
Dated: December 8,2017

BY THE COURT:
/s/ David L. Knutson_______
David L. Knutson
Judge of District Court

App. 39
MEMORANDUM
I.

THE DAKOTA COUNTY DISTRICT COURT
HAS JURISDICTION OVER THE PROBA­
TION VIOLATION ALLEGED IN THE REC­
OMMENDATION OF THE PROSECUTING
AGENCY FILED SEPTEBMER 7,2016.

“The judicial power of the state is vested in a su­
preme court, a court of appeals ... a district court and
such other courts ... as the legislature may establish.
Minn. Const, art. VI, § 1. “The district court has origi­
nal jurisdiction in all civil and criminal cases and shall
have appellate jurisdiction as prescribed by law ” Id. at
§ 3. The Apple Valley City Attorney’s Office is author­
ized by the legislature to charge and prosecute all vio­
lations of the Apple Valley City Ordinances like any
violation of state law. See Minn. Stat. § 412.861, subd.
1 (2016). All probation revocation proceedings must be
initiated by a summons or warrant based on a written
report, signed under penalty of perjury pursuant to
Minnesota Statutes, section 358.116, showing probable
cause to believe a probationer violated probation.”
Minn. R. Crim. P. 27.04, subd. l(l)(a).
Defendant was convicted of two ordinance viola­
tions on April 4, 2016 and sentenced to a stay of impo­
sition and probation to the Court for a period of up to
one year on the conditions that he pay $580.00 in fines
and fees, apply for a fence permit and pay all applica­
ble fees within ten days of sentencing, provide the city
a land survey/drawing to the city within sixty days of
sentencing, permit the city to inspect the fence and
comply with all applicable city codes. On September 7,

App. 40
2016, the Apple Valley City Attorney’s Office filed a
Recommendation to Vacate Stay and Issue Summons
alleging that the Defendant failed to submit the land
survey/drawing to the city within sixty days of April 4,
2016 as required by the terms of his probation. The Or­
der for Summons was issued on September 8,2016 and
the initial Probation Violation Hearing was set for Oc­
tober 6, 2016 and Defendant failed to appear on that
date, so a warrant was issued on October 7, 2016. On
September 28, 2017, the Defendant was arrested on
the warrant in this case while at the Dakota County
Judicial Center and was released on $300.00 bail.
The alleged probation violation was filed within
the term of probation, which ended April 4, 2017, and
was initiated by the Recommendation to Vacate Stay
and Issue Summons, signed by an Assistant Apple Val­
ley City Attorney. That Recommendation alleges that
Defendant failed to comply with the terms of probation
as ordered and, therefore, he violated the terms of pro­
bation. Because Defendant failed to appear at the orig­
inal probation violation hearing, a bench warrant was
issued with a term allowing the Defendant to post bail
in the amount of $300.00 in lieu of being incarcerated.
Defendant argues that the warrant was executed after
his original probation expiration date of April 4, 2017
and that therefore the Court has no authority to hear
the probation violation. However, Minnesota Statutes
§ 609.14, subdivision 1(c) provides that as long as the
probation violation was filed within the original term
of probation and within six months after the end of the
term of a defendant’s probation, the alleged violation

App. 41
cannot be dismissed even if the in-court proceedings
occur after the original expiration of a defendant’s pro­
bationary term. Therefore, because the Recommenda­
tion was filed within the Defendant’s probationary term
on September 7, 2016, the hearing on the alleged vio­
lation can proceed despite the expiration of Defend­
ant’s original term of probation in the interim.
When the warrant was executed on September 28,
2017, rather than being held until being taken before
the Court, Defendant paid the $300.00 bail, which al­
lowed him to be released without having to appear be­
fore a judge as required in Minnesota Rule of Criminal
Procedure 3.02, subdivision 2. Because the Dakota
County District Court has jurisdiction under the law
to hear the alleged probation violation in this case and
because there was no violation of Minnesota Rule of
Criminal Procedure 3.02, subdivision 2, Defendant’s
motion to dismiss for a lack of jurisdiction is denied.
II.

MINNESOTA RULE OF CRIMINAL PROCE­
DURE 17.06 DOES NOT REQUIRE THAT THE
PROBATION VIOLATION BE DISMISSED.

Minnesota Rule of Criminal Procedure 17.06, sub­
division 1 does not allow courts to dismiss a charging
document unless there is a defect or imperfection that
is shown to prejudice the defendant’s substantial rights.
Here, Defendant specifically argues that the Recom­
mendation to Vacate Stay and Issue Summons should
be dismissed because: (1) the document does not in­
clude facts sufficient to create probable cause, (2) he

App. 42
was never served with a copy of the document, (3) he
was not notified of the October 6, 2016 hearing and
(4) he is innocent. Because there has not been an in­
fringement of the Defendant’s substantial rights, the
Defendant’s motion is denied.
Based on the arguments raised by the Defendant
with respect to Minnesota Rule of Criminal Procedure
17.06, the only argument which actually challenges
the validity of the charging document is whether there
is probable cause to believe the Defendant failed to
abide by the terms of his probation. Minnesota Rule of
Criminal Procedure 27.04, subdivision l(l)(a) requires
all summons or warrants for probation violations to in­
clude facts sufficient to show probable cause that the
Defendant violated the term of his probation. In decid­
ing a motion to dismiss for lack of probable cause, the
court must determine, based upon the evidence pro­
vided by the parties, “whether probable cause exists to
believe that an offense has been committed and that
the defendant committed it.” Minn. R. Crim. P. 11.04.
The motion to dismiss for lack of probable cause is in­
tended to “protect a defendant [who is] unjustly or im­
properly charged from being compelled to stand trial.”
State v. Florence, 239 N.W.2d 892, 900 (Minn. 1976).
The court must consider all evidence presented in the
light most favorable to the State. State v. Slaughter,
691 N.W.2d 70, 74-75 (Minn. 2005).
If the complaint, the police reports, and state­
ments of witnesses, “convince the court that the pros­
ecutor possesses substantial evidence that will be
admissible at trial and that would justify denial of a

App. 43
motion for a directed verdict of acquittal, then the
court should deny the motion to dismiss without re­
quiring the prosecutor to call any witnesses.” State v.
Rud, 359 N.W.2d 573, 579 (Minn. 1984). When deter­
mining probable cause, the court may rely on all evi­
dence that would be admissible at trial as well as
reliable hearsay. State v. Ortiz, 626 N.W.2d 445,450-51
(Minn. Ct. App. 2001); Minn. R. Crim. R 11.04. if the
evidence presented creates a question of fact for each
element of the charged offense, the court must deny
a motion to dismiss for lack of probable cause. State
v. Lopez, 778 N.W.2d 700, 704 (Minn. 2010) (citing
Slaughter, 691 N.W.2d at 74-75).
In the Recommendation to Vacate Stay and Issue
Summons, the statement of facts states: “Defendant
has failed to properly provide the City of Apple Valley
with an engineer-certified plan of the fence as a re­
quired submission with the permit application within
60 days of April 4, 2016.” Those facts, as included on
the signed Recommendation of the Apple Valley City
Attorney’s Office, are sufficient to show that there is
probable cause to determine the Defendant has vio­
lated the terms of his probation. Defendant was re­
quired as part of his probation to submit these plans to
the City within 60 days of the date of sentencing and
the City is now stating that it never received those
plans from the Defendant. Because there is probable
cause to believe that Defendant has violated his pro­
bation, Defendant’s motion to dismiss under Minne­
sota Rule of Criminal Procedure 17.06 is denied.

App. 44
III. MINNESOTA STATUTES CHAPTER 554 IS
NOT APPLICABLE IN CRIMINAL CASES
AND DOES NOT REQUIRE THAT THE PRO­
BATION VIOLATION BE DISMISSED.
Minnesota’s anti-SLAPP (Strategic Lawsuit Against
Public Participation) statutes, Chapter 554, were en­
acted to “protect citizens and organizations from civil
lawsuits for exercising their rights to public participa­
tion in government.” Leiendecker v. Asian Women
United ofMinn.,& 48 N.W.2d 224,228 (Minn. 2014) (cit­
ing 1994 Minn. Laws 895, 895). The anti-SLAPP stat­
ute provides immunity for speech that is genuinely
aimed in whole or in part at procuring favorable gov­
ernment action. Minn. Stat. § 554.03 (2016). Chapter
554’s applicability is limited to “any motion in a judi­
cial proceeding to dispose of a judicial claim on the
grounds that the claim materially relates to an act of
the moving party that involves public participation.”
Minn. Stat. § 554.02 subd. 1 (2016). A “judicial claim”
is defined as “any civil lawsuit, cause of action, claim,
cross-claim, counterclaim, or other judicial pleading or
filing seeking damages for an alleged injury.” Minn.
Stat. § 554.01 subd. 3 (2016). The chapter is therefore
limited in scope to be a defense against all civil law­
suits, not criminal actions. See Middle-Snake-Tamarac
Rivers Watershed Dist. v. Stengrim, 784 N.W.2d 834,
840-41 (Minn. 2010).
Here, Defendant is alleged to have violated the
terms of his probation and a probation violation hear­
ing has been ordered to be held, which is a criminal
proceeding. This case does not involve any civil claims

App. 45
being brought against the Defendant and there is no
request for civil damages present in this case. There­
fore, because Minnesota Statutes Chapter 554 does not
apply to criminal proceedings, Defendant’s motion to
dismiss under Minnesota Statutes Chapter 554, the
anti-SLAPP statutes, is denied.
/s/ DLK
D.L.K.

App. 46
The State of Minnesota
Dakota County
Dakota, Apple Valley
State of Minnesota vs
GENE RECHTZIGEL

District Court
1st Judicial District
ORDER
(Filed Apr. 4, 2016)

Case Number:
19AV-CR-15-10738

CURRENT DEFENDANT INFORMATION
Known 6533160th ST W Correspond­
Address: Apple Valley, ence Address:
MN 55124
Phone
None
Number: Provided
DOB:

Ct
1

2

3

4

6533 160th ST W
Apple Valley,
MN 55124

10/15/1953

CASE CHARGES
Statute
Type
Description Disposition
Charging Permit
2015
Convicted
MSBC1300.
Required
0120
for Fence
Charging Stop Work Convicted
2015
MSBC1300.
Order
0170
Violation
2007 MSFC Charging Objects to Dismissed
Close to
Hydrant
2007 MSFC Charging 3 Foot Clear­ Dismissed
ance Around
Hydrants

App. 47
TERMS OF DISPOSITION
OR SENTENCE: COUNT 1
Misdemeanor
Level of
Sentence: Sentence is a stay of imposition
pursuant to M.S. 609.135.
Date
Pronounced: April 4, 2016
Offense Information
Description Offense
Ct Offense Statute
Disposition
Date
Permit
Convicted
1 06/15/2015 2015
MSBC1300. Required
for Fence
0120
Controlling Controlling
MOCat
GOC
Filing
Agency
No.
Housing
Inspector
Sentence Details
Monitoring - Adult
Defendant is placed on Probation to the Court for 1
year, monitored by Dakota Co District Court - Has­
tings Criminal.
Start Date: 04/04/2016 Discharge Date: 04/04/2017
Status Date: 04/04/2016
Status: Active
Fees
Sentence includes a $250.00 fine.
Law Library Fees
$5.00
Municipality Fines 2/3 $250.00
Crim/Traffic Surcharge
(once per case)
$75.00
Apple Valley Pros Costs$250.00
Subtotal
$580.00

Due 05/04/2016

App. 48
Conditions - Adult
Defendant is placed under the following conditions:
Condition
Conditions,
other

Location Amt Effective End
04/04/2016

Defendant must apply to the city of Apple Valley
for the required Fence permit & pay applicable
fees within 10 days from today. Defendant shall
include a land survey/drawing or whatever is re­
quired by the City of Apple Valley within 60 days.
Defendant must allow city inspection of the fence
and defendant shall comply with all applicable
city codes regarding the fence. Upon compliance
with the applicable city codes with regard to the
fencing defendant is to be discharged from probation.
TERMS OF DISPOSITION
OR SENTENCE: COUNT 2
Misdemeanor
Level of
Sentence: Sentence is a stay of imposition
pursuant to M.S. 609.135.
Date
Pronounced: April 4,2016
Offense Information
Ct Offense Statute Description Offense
Date
Disposition
2
06/15/2015 2015
Stop Work Convicted
MSBC1300. Order
Violation
0170

App. 49
MOC at
Filing

Controlling Controlling
Agency
No.
Housing
Inspector

GOC

Sentence Details
Concurrent!Consecutive
Concurrent
all terms concurrent with count 1
Monitoring - Adult
Defendant is placed on Probation to the Court for 1
year, monitored by Dakota Co District Court - Has­
tings Criminal.
Start Date: 04/04/2016 Discharge Date: 04/04/2017
Status: Active

Status Date: 04/04/2016
GRAND TOTAL

Date of Sentence: 04/04/2016
Original Amount: $580.00
Due Date: 05/04/2016
The court may refer this case for collection if you
fail to make a payment, and collection costs will be
added. You have the right to contest a referral for
collection based on inability to pay by requesting a
hearing no later than the due date. M.S. §§ 480.15
subd. 10c; 609.104

App. 50
SIGNATURE
David Knutson
Judge David L. Knutson
sentence pronounced on 04/04/2016 by District Court
Judge
Court Administrator:
Heidi Carstensen 952-891-7256
Ifyou have questions regarding the terms of your
sentence or disposition, please contact your attorney,
LUCAS BENJAMIN SPAETH 651-323-8527, your
probation agent or court administrator.

App. 51
STATE OF MINNESOTA
IN COURT OF APPEALS
State of Minnesota,
Respondent,

ORDER
(Filed Mar. 8, 2016)
#116-0253

vs.
Gene Rechtzigel,
Petitioner.

Considered and decided by Cleary, Chief Judge;
Peterson, Judge; and Rodenberg, Judge.
BASED ON THE FILE, RECORD, AND PRO­
CEEDINGS, AND FOR TIE FOLLOWING REA­
SONS:
Petitioner Gene Rechtzigal has filed this petition
for discretionary review from the district court’s Janu­
ary 15, 2016 order denying his pretrial motion to dis­
miss two citations alleging building code violations.
The state opposes discretionary review.
This court will grant discretionary review of a pre­
trial order only if a “compelling reason” is shown. State
v. Jordan, 426 N.W.2d 495, 496 (Minn. App. 1988). A
criminal defendant has a right to appeal any convic­
tion, and to raise pretrial issues in that appeal; there­
fore, pretrial appellate review is rarely granted to a
criminal defendant. See State v. Hagen, 342 N.W.2d
160,161-62 (Minn. App. 1984) (denying prohibition be­
cause defendant can appeal after trial, even though it

App. 52
involves delay); cf. State v. Murphy, 537 N.W.2d 492,
494 (Minn. App. 1995) (noting criminal defendant has
no constitutional right to pretrial appeal). Additionally,
a defendant can expedite an appeal by waiving trial
rights and submitting the case on stipulated facts un­
der Minn. R. Crim. R 26.01, subd. 3. “If the court finds
the defendant guilty based on the stipulated facts, the
defendant may appeal from the judgment of conviction
and raise issues on appeal as from any trial to the
court.” Id., subd. 3(e); see also Minn. R. Crim. P. 26.01,
subd. 4 (permitting expedited appeal on stipulated ev­
idence where parties agree district court’s ruling on
specified pretrial issue is dispositive of the case).
Because petitioner can appeal from final judgment
or proceed with a stipulated-facts trial under rule
26.01, subdivisions 3 or 4, he has not demonstrated a
compelling reason for discretionary review.
IT IS HEREBY ORDERED:
1. The petition for discretionary review is denied.
2. This order shall not be construed as a final ex­
pression of opinion on the merits precluding later ap­
pellate review.
Dated: March 8, 2016
BY THE COURT
/s/ Edward J. Cleary
Edward J. Cleary
Chief Judge

App. 53
STATE OF MINNESOTA
IN SUPREME COURT
A18-1449
A18-1615
Gene Rechtzigel,
Petitioner,
vs.
State of Minnesota,
Respondent,
ORDER
Based upon all the files, records, and proceedings
herein,
IT IS HEREBY ORDERED that the petition of
Gene Rechtzigel for further review be, and the same is,
denied.
Dated: October 29,2019

BY THE COURT:
/s/ Lorie S. Gildea
Lorie S. Gildea
Chief Justice

App. 54
Register of Actions
Case No. 19AV-CR-15-10738
State of Minnesota vs § Case Type:
GENE RECHTZIGEL § Crim/Traf Mandatory
§ Date Filed:
05/26/2015
§
Location:
§
Dakota-Apple Valley
§ Judicial Officer:
§ Knutson, David L.

Party Information
Defendant
RECHTZIGEL, GENE
Apple Valley, MN 55124
Jurisdiction
State of Minnesota

Lead Attorney
LUCAS BENJA
MIN SPAETH
Retained
651-322-8527(W)

DOB: 10/15/1953 CHRISTINE JODI
CASSELLIUS
952-432-3136(W)

Case Information
Charges: RECHTZIGEL, GENE
1.

Permit Required for Fence
Statute: 2015 MSBC1300.0120
Level: Misdemeanor Date: 06/15/2015
Disposition: 04/04/2018 Convicted

App. 55
Level of Sentence: 03/090/2018 Convicted of a
Misdemeanor
2.

Stop Work Order Violation
Statute: 2015 MSBC1300.0170
Level: Misdemeanor Date: 06/15/2015
Disposition: 04/04/2018 Convicted
Level of Sentence: 04/04/2016 Convicted of a
Misdemeanor

3.

Objects to Close Hydrant
Statute: 2007 MSFC
Level: Misdemeanor Date: 06/15/2015
Disposition: 10/01/2015 Dismissed

4.

3 Foot Clearance Around Hydrants
Statute: 2007 MSFC
Level: Misdemeanor Date: 06/15/2015
Disposition: 10/01/2015 Dismissed
Events & Orders of the Court

DISPOSITIONS
07/10/2015 Plea (Judicial Officer: Theisen, Mary J.)
1.
2.
3.
4.

Permit Required for Fence
Not guilty
Stop Work Order Violation
Not guilty
Objects to Close to Hydrant
Not guilty
3 Foot Clearance Around Hydrants
Not guilty

App. 56
10/01/2015 Disposition (Judicial Officer:
Moynihan, Shawn M.)
3.
4.

Objects to Close to Hydrant
Dismissed
3 Foot Clearance Around Hydrants
Dismissed

04/04/2016 Amended Plea (Judicial Officer: Knut­
son, David L.) Reason: Defense Motion
Granted
1.
2.

Permit Required for Fence
Guilty
Stop Work Order Violation
Guilty

04/04/2016 Disposition (Judicial Officer: Knutson,
David L.)
1.
2.

Permit Required for Fence
Convicted
Stop Work Order Violation
Convicted

04/04/2016 Stay of Imposition Pursuant to MA.
609.135 (Judicial Officer: Knutson,
David L.)
1. Permit Required for Fence
06/15/2015 (MSD) 2015 MSBC1300.0120
(HOUSING)
Monitoring - Adult:
Type: Probation to the Court
Agency: Dakota Co District Court
- Hastings Criminal
Term of 1 Yr

App. 57
04/04/2016 - 04/04/2017
Status: Closed 04/23/2017
Fee Totals:
Law Library Fees
Municipality Fines 2/3
Crim/Traffic Surcharge
(once per case)
Apple Valley Pros Costs
Fee Totals

$5.00
$250.00
$75.00
$250.00
$580.00

Condition - Adult:
1. Conditions, other, Defendant must apply to
the city of Apple Valley for the required Fence per­
mit & pay applicable fees within 10 days from to­
day. Defendant shall include a land survey
/drawing or whatever is required by the City of Ap­
ple Valley within 60 days. Defendant must allow
city inspection of the fence and defendant shall
comply with all applicable city codes regarding the
fence. Upon compliance with the applicable city
codes with regard to the fencing defendant is to be
discharged from probation. 04/04/2016, Active
04/04/2016
Level of Sentence:
Convicted of a Misdemeanor
04/04/2016 Stay of Imposition Pursuant to M.S.
609.135 (Judicial Officer: Knutson,
David L.)
2. Stop Work Order Violation
06/15/2015 (MSD) 2015 MSBC1300.0170
(HOUSING)

App. 58

Monitoring - Adult:
Type: Probation to the Court
Agency: Dakota Co District Court
- Hastings Criminal
Term of 1 Yr
04/04/2016 - 04/04/2017
Status: Closed 04/23/2017
Level of Sentence:
Convicted of a Misdemeanor
Concurrent/Consecutive:
Concurrent
Comment: all terms concurrent with
count 1
01/26/2018 Amended Stay of Imposition Pursu­
ant to M.S. 609.135 (Judicial Officer:
Knutson, David L.) Reason: Probation
Violation
1. Permit Required for Fence
06/15/2015 (MSD) 2015 MSBC1300.0120
(HOUSING)
Monitoring - Adult:
Type: Probation to the Court
Agency: Dakota Co District Court
- Hastings Criminal
Term of 1 Yr
04/04/2016 - 04/04/2017
Status: Closed 04/23/2017
Fee Totals:
Law Library Fees
Municipality Fines 2/3

$5.00
$250.00

App. 59
Crim/Traffic Surcharge
(once per case)
Apple Valley Pros Costs
Fee Totals $

$75.00
$250.00
$580.00

Condition - Adult:
1. Conditions, other, Defendant must apply to
the city of Apple Valley for the required Fence per­
mit & pay applicable fees within 10 days from to­
day. Defendant shall include a land survey/
drawing or whatever is required by the City of Ap­
ple Valley within 60 days. Defendant must allow
city inspection of the fence and defendant shall
comply with all applicable city codes regarding the
fence. Upon compliance with the applicable city
codes with regard to the fencing defendant is to be
discharged from probation. 04/04/2016. Active
04/04/2016
Condition - Adult:
1. Conditions, other, Defendant shall cooperate
and work with the City of Apple Valley to complete
the requirements to obtain a permit for his fence
and obtain a “stamped drawing from a license en­
gineer” within 30 days of the date of this order.
01/25/2018, Active 01/26/2018
Level of Sentence:
Convicted of a Misdemeanor

App. 60
03/09/2018 Amended Stay of Imposition Pursu­
ant to M.S. 609.135 (Judicial Officer:
Knutson, David L.) Reason: Probation
Violation
1. Permit Required for Fence
06/15/2015 (MSD) 2015 MSBC1300.0120
(HOUSING)
Monitoring - Adult:
Type: Probation to the Court
Agency: Dakota Co District Court
— Hastings Criminal
Term of 1 Yr 6 mo
04/04/2016 - 07/26/2018
Comment: probation extended
6 months to 7.26.18
Status: Closed 03/09/2018
Fee Totals:
Law Library Fees
Municipality Fines 2/3
Crim/Traffic Surcharge
(once per case)
Apple Valley Pros Costs
Fee Totals $

$5.00
$250.00
$75.00
$250.00
$580.00

Condition - Adult:
1. Conditions, other, Defendant must apply to
the city of Apple Valley for the required Fence per­
mit & pay applicable fees within 10 days from to­
day. Defendant shall include a land survey/
drawing or whatever is required by the City of
Apple Valley within 60 days. Defendant must al­
low city inspection of the fence and defendant
shall comply with all applicable city codes regard­
ing the fence. Upon compliance with the applicable

App. 61
City codes with regard to the fencing defendant
is to be discharged from probation. 04/04/2016,
Active 04/04/2016
Condition - Adult:
1. Conditions, other, Defendant shall cooperate
and work with the City of Apple Valley to complete
the requirements to obtain a permit for his fence
and obtain a “stamped drawing from a license en­
gineer” within 30 days of the date of this order,
01/25/2018, Active 01/26/2018
Condition - Adult:
1. Conditions, other, review hearing scheduled
for 6.5.18 @ 9:00 am in Hastings; Defendant shall
submit a final signed and stamped updated engi­
neers reprot to the city by 3.23.18 03/09/2018, Ac­
tive 03/09/2018
Level of Sentence:
Convicted of a Misdemeanor

OTHER EVENTS AND HEARINGS
06/26/2015 Citation Index # 1
06/26/2015 Police or Incident Report Index # 2
07/10/2015 Arraignment (9:00 AM) (Judicial
Officer Theisen, Mary J.)
Result: Held
07/10/2015 Notice of Hearing Index # 3
09/01/2015 Affidavit of Service Index # 4
09/01/2015 Motion Index # 5
09/03/2015 Pre-trial (1:30 PM) (Judicial Officer
Wermager, Tim D.)
Result: Held

App. 62
09/03/2015
09/03/2015
09/03/2015
09/28/2015
09/30/2015
09/30/2015
10/01/2015
10/01/2015
10/23/2015
10/23/2015
10/26/2015
01/15/2016
01/15/2016
02/12/2016
02/16/2016
02/22/2016
03/03/2016
03/04/2016
03/04/2016
04/01/2016
04/01/2016

Motion to Dismiss Index #6
Affidavit-Other Index # 7
Notice of Hearing Index # 9
Motion Index # 10
Certificate of Representation
Index #11
e-Service
State of Minnesota Served 09/30/2015
Contested Omnibus (2:30 PM) (Judi­
cial Officer Moynihan, Shawn M.)
Result: Held
Court Clerk Minutes Index # 13
Memorandum Index # 14
Affidavit of Service Index # 15
Taken Under Advisement Index#
12 (Judicial Officer: Moynihan, Shawn
M.)
Findings of Fact, Conclusions of
Law and Order Index # 16 (Judicial
Officer: Moynihan, Shawn M.)
Notice of Filing of Order Index
# 17
Other Document Index # 18
Appellate Notice of Case Filing
Index # 19
Other Document Index # 20
Request for Transcript Index # 22
Court Reporter Certificate as to
Transcript-Appellate Court Index
#23
Correspondence Index # 24
Affidavit of Service Index # 25
Notice of Motion and Motion
Index # 26

App. 63
04/01/2016 e-Service
State of Minnesota Served 04/01/2016
04/01/2016 e-Service
State of Minnesota Served 04/01/2016
04/01/2016 Correspondence Index # 27
04/04/2016 Sentencing (1:30 PM) (Judicial Officer
Knutson, David L.)
0410412016 Reset by Court to 0410412016
Result: Held
04/04/2016 Sentencing Order Index # 28
(Judicial Officer: Knutson, David L.)
04/04/2016 Afford Plea
04/29/2016 Transcript Index # 29
04/29/2016 Court Reporter Certificate of Filing
&Delivery-Appellate Crt Index # 30
09/07/2016 Proposed Order or Document Index
#31
09/08/2016 Order-Other Index # 32 (Judicial
Officer: Moynihan, Shawn M.)
09/08/2016 Notice of Hearing Index # 33
10/08/2016 Probation Violation Hearing (9:00
AM) (Judicial Officer King, Colleen G.)
Result Held
10/06/2016 Fail to Appear at a hearing
10/07/2016 Warrant Issued Index # 34
02/14/2017 Notice-Other Index # 35
02/14/2017 Notice-Other Index # 36
02/24/2017 Exhibit Receipt or Authorization to
Release or Destroy Index # 37
03/08/2017 Correspondence Index # 38
03/08/2017 e-Service
State of Minnesota Served 03/08/2017
03/08/2017 e-Service
RECHTZIGEL, GENE Served 03/08/2017

App. 64
03/13/2017 Notice of Withdrawal of Counsel
Index # 39
03/13/2017 e-Service
State of Minnesota Served 03/13/2017
03/13/2017 e-Service
RECHTZIGEL, GENE Served 03/13/2017
04/23/2017 Discharge from Probation or Moni­
toring Index # 60
09/28/2017 Warrant-Make Inactive-Bail/Bond
Posted
09/28/2017 Notice of Hearing Index # 40
09/28/2017 Motion to Dismiss Index # 41
09/28/2017 Affidavit-Other Index # 42
09/28/2017 Affidavit-Other Index # 43
09/28/2017 Order-Other Index # 44 (Judicial
Officer: Bayley,Douglas C.,)
09/28/2017 Notice of Filing of Order
Index # 45
10/16/2017 Petition-Post Conviction Relief
Index # 46
10/19/2017 Affidavit-Other Index # 47
10/16/2017 Affidavit of Mailing Index # 48
10/17/2017 Petition-Post Conviction Relief
Index #49
10/17/2017 Affidavit of Service Index # 50
10/17/2017 Affidavit of Mailing Index # 51
10/17/2017 Correspondence Index # 52
10/17/2017 Motion Index # 53
10/18/2017 Motion to Dismiss Index # 54
10/18/2017 Affidavit of Mailing Index # 55
10/18/2017 Proposed Order or Document
Index # 56

App. 65
10/19/2017

10/19/2017
10/19/2017
10/19/2017
12/08/2017
12/13/2017
12/13/2017
01/25/2018
01/25/2018
01/25/2018
01/25/2018
03/09/2018
03/09/2018
03/09/2018

Probation Violation Hearing (9:00
AM) (Judicial Officer Knutson,
David L.)
1011912017 Reset by Court to
1011912017 1011912017
Reset by Court to 1011912017
Result: Held
Motion to Dismiss Index # 57
Taken Under Advisement
Index # 58 (Judicial Officer:
Knutson, David L.)
Statement of Rights Index # 59
Order-Other Index #61 (Judicial
Officer: Knutson, David L.)
Order-Other Index # 62 (Judicial
Officer: Knutson, David L.)
Notice of Filing of Order
Index # 63
Probation Violation Hearing (9:00
AM) (Judicial Officer Knutson, David
L.) Result: Held
Motion to Dismiss Index # 84
Taken Under Advisement
Index # 65 (Judicial Officer: Knutson,
David L.)
Amended Sentencing Order
Index # 66 (Judicial Officer: Knutson,
David L.)
Review Hearing (9:00 AM) (Judicial
Officer Knutson, David L.)
Result: Held
Notice of Hearing Index # 57
Amended Sentencing Order
Index # 68 (Judicial Officer: Knutson,
David L.)

App. 66
03/03/2018
03/09/2018
03/16/2018
03/23/2018
03/23/2018
03/23/2018
05/05/2018
06/05/2018
06/07/2018
07/06/2018
07/09/2018

07/09/2018
07/10/2018
08/02/2018
08/03/2018
09/10/2018

Probation Violation Found (Judicial
Officer: Knutson, David L.)
Probation Continued - Same Terms
and Conditions
Correspondence Index # 69
Correspondence Index # 70
Affidavit of Service Index #71
Affidavit of Service Index # 72
Review Hearing (9:00 AM) (Judicial
Officer Knutson, David L.)
Result: Held
Notice of Hearing Index # 73
Motion to Dismiss Index # 74
Motion Index # 75
Contested Revocation Hearing
(9:00 AM) (Judicial Officer Knutson,
David L.)
Result: Held
Taken Under Advisement
Index # 76 (Judicial Officer: Knutson,
David L.)
Transcript Index # 77
Findings of Fact, Conclusions of
Law and Order Index # 78 (Judicial
Officer: Knutson, David L.)
Notice of Filing of Order
Index # 79
Disposition Hearing (9:00 AM)
(Judicial Officer Knutson, David L.)

App. 67

Financial Information
Defendant: RECHTZIGEL, GENE
580.00
Total Financial Assessment
580.00
Total Payments and Credits
0.00
Balance Due as of 09/03/2018
04/04/2016 Transaction Assessment
04/12/2016 Counter Payment
Receipt # AV19-2016-03922
RECHTZIGEL: GENE

580.00
(580.00)

App. 68
STATE OF MINNESOTA

DISTRICT COURT

COUNTY OF DAKOTA FIRST JUDICIAL DISTRICT
OTHER CIVIL - TORRENS
In the Matter of the
Application of Fischer
Market Place. LLP, a
Minnesota limited liability
partnership.
To Register the Title to
Certain Land

Court File No. 1
9HA-CV-09-5476
STIPULATION AND
ORDER REGARDING
ACKNOWLEDGE­
MENT OF AND
CONSENT TO RIGHT
OF WAY RIGHTS OF
MAGELLAN
PIPELINE COMPANY,
(Filed Feb. 7, 2012)

Magellan Pipeline Company, L.P. (“Magellan”)
and Gene I. Rechtzigel, as Trustee of the Evelyn I.
Rechtzigel Trust and the Frank H. Rechtzigel Charita­
ble Remainder Unitrust and the Estate of Frank H.
Rechtzigel (collectively, “Rechtzigel”), by and through
their undersigned legal counsel, stipulate and agree as
follows:
STIPULATION
WHEREAS, Magellan and Rechtzigel are parties
to that action in District Court Dakota County, State
of Minnesota, captioned above and entitled In re Mat­
ter of Application of Fischer Market Place, LLP to

App. 69
Register the Title to Certain Land, Court File No.
19HA-CV-09-5476 (the “Action”).
WHEREAS, in the Action, Rechtzigel and Fischer
Market Place, LLP (“Fischer”) each claim ownership by
adverse possession of the fee to a strip of land lying
between the East line of the West 30 acres of the East
i/2 of the Southwest V4 of Section 35, Township 115,
Range 20, Dakota County, MN and the West line of the
East 50 acres of the East i/2 of the Southwest V4 of Sec­
tion 35. Township 115. Range 20. Dakota County, MN
as stated in pleadings and the Report of Examiner in
the Action (the “Strip”). Rechtzigel specifically denies
Fischer’s claims of adverse possession regarding the
Strip and denies that Fischer holds the fee to the Strip
by adverse possession.
WHEREAS, in the Action, Magellan states that
for more than 15 years it has occupied and used the
east 50 acres of the Southwest V4 of Section 35 Town­
ship 115. Range 20. Dakota County, Minnesota and the
Strip for pipeline, telecommunication and other pur­
poses, in an open, notorious and continuous fashion
and pursuant to:
a) that certain Right of Way Agreement
executed by Harold Schwanz and Hertha
Schwanz, on the 13th day of October, 1966,
and filed for record in the office of the Re­
corder of Deeds of Dakota County, Minnesota
on the 17th day of October, 1966, in Book 80 of
M.R. at Page 180, as Document No. 333427, as
modified per a Partial Release and Grant of
Right of Way Agreement and filed for record

App. 70
in the office of the Recorder of Deeds of Da­
kota County, Minnesota on the 2nd day of Feb­
ruary, 2005, as Document No. 2291901, as
modified per a Partial Release and Grant of
Right of Way Agreement and filed for record
in the Office of the County Recorder for Da­
kota County, Minnesota on the 7th day of
June, 2006, as Document No. 2435630;
b) that certain Right of Way Agreement
executed by Margaret Hyland, on the 23rd
day of August, 1930, and filed for record in the
office of the Register of Deeds of Dakota
County, Minnesota on the 20th day of Novem­
ber, 1930 in Book 40 of M.R. at pages 377-378,
as modified per a Partial Release of Right of
Way Agreement dated the 29th day of Febru­
ary, 1980 and filed for record in the Office of
the County Recorder for Dakota County, Min­
nesota, on the 14th day of March, 1980, as
Document No 557117; and as all restated and
modified by
c) that Restated Partial Release and
Grant of Right of Way executed by Fischer on
July 11,2011 and recorded in the Office of the
Dakota County Recorder on July 26, 2011 as
Document Number 2811611.
(collectively, the “Magellan Right of Way”).
WHEREAS, Rechtzigel acknowledges, concedes,
consents and agrees to the Magellan Right of Way and
acknowledges that their interest, if any, in the Strip is
subject to the Magellan Right of Way.

App. 71
NOW, THEREFORE, Rechtzigel and Magellan
stipulate and agree as follows, and respectfully submit
their Stipulation Regarding Acknowledgement of and
Consent to Right of Way Rights of Magellan Pipeline
Company, L.P. and Order to the Court for review and
its requested approval and entry of judgment:
1. Rechtzigel Acknowledge and Consent to
the Magellan Right of way. Rechtzigel acknowl­
edges, concedes, consents and agrees to the Magellan
Right of Way and Rechtzigel stipulates to and acknowl­
edges that their interest in the Strip, if any, is subject
to the Magellan Right of Way.
2. Dismissal of Other Claims of Rechtzigel
Against Magellan. Any claims of Rechtzigel against
Magellan or the Magellan Right of Way, including,
without limitation, any claims for costs, disbursements
or attorney’s fees, shall be dismissed with prejudice
and without costs, disbursements or attorney’s fees to
any party.
3. Recording of This Stipulation and Order.
That the Dakota County Recorder and/or the Dakota
County Registrar of titles should be required to accept
a certified copy of the fully executed and entered Stip­
ulation Regarding Acknowledgement of and Consent
to Right of Way Rights of Magellan Pipeline Company,
L.P. and Order for recording against the real property
identified in the Magellan Right of Way, including the
Strip.

App. 72
DATED: 1/18 2012

LINDQUIST & VENNUM, pllp
By /s/ Christopher R. Grote_____
Christopher R. Grote
(#267995)
cgrote@lindquist.com
William B. Flynn (#0030600)
wflynn@lindquist. com
4200 IDS Center
80 South Eighth Street
Minneapolis, MN 554022274
(612) 371-3211
(612) 371-3207 (facsimile)
ATTORNEYS FOR MAGELLAN
MIDSTREAM PARTNERS LP

DATED: 1-16 2012

MOHRMAN & KAARDAL, P.A
By /s/ Erick G. Kaardal_________
Erick G. Kaardal (#229647)
33 South Sixth Street,
Suite 4100
Minneapolis, MN 55401
(612) 341-1074
ATTORNEYS FOR FRANK H.
RECHTZIGEL, GENE A.
RECHTZIGEL, TRUSTEE, THE
EVELYN I. RECHTZIGEL
TRUST AND THE FRANK H.
RECHTZIGEL CHARITABLE
TRUST REMAINDER
UNITRUST

App. 73
ORDER
The foregoing Stipulation Regarding Acknowledge­
ment of and Consent to Right of Way Rights of Magellan
Pipeline Company, LP, has been reviewed and is hereby
approved. Accordingly, the Court issues the following:
ORDER FOR JUDGMENT:
1. The interest of Rechtzigel, jointly or severally, in
the Strip, if any is subject to the Magellan Right of Way.
2. Any claims of Rechtzigel against Magellan or
the Magellan Right of Way, including, without limita­
tion, any claims for costs, disbursements or attorney’s
fees, are hereby dismissed with prejudice and without
costs, disbursements or attorney’s fees to any party.
3. The Dakota County Recorder and/or the Da­
kota County Registrar of titles shall accept a certified
copy of this Stipulation Regarding Acknowledgement
of and Consent to Right of Way Rights of Magellan
Pipeline Company, LP, and Order for recording against
the real property identified in the Magellan Right of
Way, including the Strip.
THERE BEING NO JUST REASON FOR DE­
LAY, LET JUDGMENT BE ENTERED ACCORD­
INGLY.
Dated: February 6.2012

BY THE COURT
/s/ David L. Knutson____
Judge of District Court

App. 74
APPROVED FOR FILING
Date: 2/6/12____________
/s/ James P. O’Connell
James P. O’Connell
Examiner of Titles
Dakota County, MN
Re: In the Matter of the Application of Fischer Market
Place, LLP, a Minnesota limited Liability partner­
ship, To Register the Title to Certain Land
Dakota County District Court
File No. 19HA-CV-09-5476
AFFIDAVIT OF SERVICE BY MAIL
STATE OF MINNESOTA
COUNTY OF HENNEPIN

)
)
)

ss

Amy Beth Crawford, of the City of Coon Rapids,
County of Anoka, in the State of Minnesota, being duly
sworn on oath says: that on the 18th day of January,
2012; she served the following:
1.

Stipulation and Order Regarding Acknowl­
edgement of and Consent to Right of Way
Rights of Magellan Pipeline Company, L.P;
and

2.

Affidavit of Service by Mail

upon the persons listed below:
SEE ATTACHED SERVICE LIST
mailing copies of the above-listed documents enclosed
in an envelope, postage prepaid, and by depositing the

r'

App. 75
same in the post office at Minneapolis, Minnesota, di­
rected to said persons at the last known addresses
listed above.
/s/ Amy Beth Crawford
Amy Beth Crawford
Subscribed and sworn to before me
this 18th day of January, 2012.
/s/ Amv Ganci Jones
Notary Public
[SEAL]

AMY GANCI JONES
Notary Public
Minnesota
My Commission Expires January 31, 2016
District Court
State of Minnesota
Dakota County
First Judicial District
Court File Number: 19HA-CV-09-5476
Case Type: Torrens
Notice of Filing of Order
ERICK GREGG KAARDAL
MOHRMAN & KAARDAL
33 SOUTH SIXTH STREET
SUITE 4100
MINNEAPOLIS MN 55402
In re the Matter of the Application of Fischer
Market Place, LLP to Register the Title to
Certain Land [Cert # 153064-McNamara]
You are notified that an order was filed on this date.
Dated: February 7, 2012

App. 76
Carolyn M. Renn
Court Administrator
Dakota County District Court
1560 Highway 55
Hastings MN 55033
651-438-8100
cc: GERALDS DUFFY
THOMAS ROSS DONELY
CHRISTOPHER RAYMOND GROTE
A true and correct copy of this notice has been served
by mail upon the parties herein at the last known ad­
dress of each, pursuant to Minnesota Rules of Civil
Procedure, Rule 77.04.
RECEIVED
FEB 08 2012
MOHRMAN & KAARDAL, PA.
SERVICE LIST
Re: In the Matter of the Application of Fischer Market
Place, LLP, a Minnesota limited Liability partner­
ship, To Register the Title to Certain Land
Dakota County District Court
File No. 19HA-CV-09-5476
Gerald S. Duffy, Esq.
MONROE MOXNESS
BERG PA
8000 Norman Center Drive
Suite 1000
Minneapolis, MN 55437

Thomas R. Donely
Severson Sheldon
Doughtery & Molenda
7300 West 147th Street,
Suite 600
Apple Valley, MN 55124

App. 77
James P. O’Connell
Examiner of Titles,
Dakota County
906 Vermillion Street
Hastings, MN 55033

Erick G. Kaardal
Mohrman &Kaardal, P.A.
33 South Sixth Street,
Suite 4100
Minneapolis, MN 55402

